<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
                   DEPARTMENT OF HOMELAND SECURITY 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                        NONDEPARTMENTAL WITNESS

    [The following testimony was received by the Subcommittee 
on Homeland Security for inclusion in the record. The submitted 
material relates to the fiscal year 2014 budget request for 
programs within the subcommittee's jurisdiction.]
      Prepared Statement of the National Treasury Employees Union
    Chairman Landrieu, Ranking Member Coats, distinguished members of 
the subcommittee; thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) officers and trade enforcement 
specialists who are stationed at 331 land, sea and air ports of entry 
(POEs) across the United States.
    NTEU applauds the administration's fiscal year 2014 budget that 
recognizes that there is no greater roadblock to legitimate trade and 
travel efficiency than the lack of sufficient staff at the ports. 
Understaffed ports lead to long delays in our commercial lanes as cargo 
waits to enter U.S. commerce. NTEU strongly supports the fiscal year 
2014 budget request for a total of 3,477 new CBP officer hires at the 
air, sea and land ports of entry--1,600 paid for by an increase of 
$210.1 million in fiscal year 2014 funding and 1,877 paid for by an 
increase in customs and immigration user fees that have not been 
increased since 2001.
    For years, NTEU has maintained that delays at the ports result in 
real losses to the U.S. economy. According to the U.S. Department of 
the Treasury, more than 50 million Americans work for companies that 
engage in international trade and, according to a recent University of 
Southern California study, ``The Impact on the Economy of Changes in 
Wait Times at the Ports of Entry'', dated April 4, 2013, for every 
1,000 CBP officers added, the United States can increase its gross 
domestic product by $2 billion. If Congress is serious about job 
creation, then Congress should support enhancing U.S. trade and travel 
by mitigating wait times at the ports and enhancing trade enforcement 
by increasing CBP security and commercial operations staffing at the 
air, sea, and land ports of entry and increase the CBP appropriation to 
the level requested in the administration's fiscal year 2014 budget 
submission.
    NTEU was heartened to see that there was no decrease in CBP officer 
overtime funding as there has been in previous budget submissions. 
Overtime is essential when CBP officer staffing levels are insufficient 
to ensure that inspectional duties can be fulfilled, that officers have 
sufficient back-up and that wait times are mitigated. In CBP's own 
words, ``Overtime allows OFO to schedule its personnel to cover key 
shifts with a smaller total personnel number.'' This is one reason that 
Congress authorized a dedicated funding source to pay for overtime--
customs user fees, pursuant to title 19, section 58c(f) of the U.S. 
Code.
    NTEU strongly supports the increase of the immigration and customs 
user fees by $2 each to fund the hiring of an additional of 1,877 CBP 
officers. CBP collects user fees to recover certain costs incurred for 
processing, among other things, air and sea passengers, and various 
private and commercial land, sea, air, and rail carriers and shipments. 
The source of these user fees are commercial vessels, commercial 
vehicles, rail cars, private aircraft, private vessels, air passengers, 
sea passengers, cruise vessel passengers, dutiable mail, customs 
brokers and barge/bulk carriers. These fees are deposited into the 
customs user fee account. Customs user fees are designated by statute 
to pay for services provided to the user, such as inspectional overtime 
for passenger and commercial vehicle inspection during overtime shift 
hours. User fees have not been increased in years and some of these 
user fees cover only a portion of recoverable fee-related costs. In 
2010, CBP collected a total of $13.7 million in commercial vehicle user 
fees, but the actual cost of commercial vehicle inspections in fiscal 
year 2010 was over $113.7 million--a $100 million shortfall.
    Increasing the immigration inspection user fee by $2 to allow CBP 
to better align air passenger inspection fee revenue with the costs of 
providing immigration inspection services, is also supported by the 
Government Accountability Office (GAO). According to GAO (GAO-12-464T, 
page 11), fee collections available to ICE and CBP to pay for costs 
incurred in providing immigration inspection services totaled about 
$600 million in fiscal year 2010, however, ``air passenger immigration 
fees collections did not fully cover CBP's costs in FY 2009 and FY 
2010.''
    NTEU is opposed to the $16 million cut in the fiscal year 2014 
budget for the Foreign Language Award Program (FLAP), established by 
the 1993 Customs Officer Pay Reform Act (COPRA), which allows employees 
who speak and use foreign language skills on the job to receive a cash 
award if they use the language for at least 10 percent of their duties 
and have passed the competence test. FLAP is fully funded by customs 
user fees. Also, under COPRA, Congress made FLAP funding a priority 
because not only do language barriers delay processing of trade and 
travel at the ports, for these law enforcement officers, communication 
breakdowns can be dangerous. Since its implementation in 1997, this 
incentive program, incorporating more than two dozen languages, has 
been instrumental in identifying and utilizing CBP employees who are 
proficient in a foreign language. Qualified employees are also eligible 
for awards for use of languages of special interest, such as Urdu, 
Farsi and Arabic that have been identified as critical foreign 
languages in support of CBP's anti-terrorism mission.
    NTEU also supports GAO recommendations aimed at more fully aligning 
Agriculture Quality Inspection (AQI) fee revenue with program costs 
(see GAO-13-268). According to GAO, in fiscal year 2011, CBP incurred 
81 percent of total AQI program costs, but received only 60 percent of 
fee revenues; whereas the Animal, Plant Health Inspection Service 
(APHIS) incurred 19 percent of program costs but retained 36 percent of 
the revenues. In other words, APHIS covers all its AQI costs with AQI 
fee revenues, while CBP does not. AQI user fees fund only 62 percent of 
agriculture inspection costs with a gap of $325 million between costs 
and revenue. To bridge the resulting gap, CBP uses its annual 
appropriation. NTEU also supports CBP's efforts to establish an 
agriculture specialists resource allocation model to ensure adequate 
CBP agriculture specialist staffing at the POEs.
    Finally, NTEU supports CBP's study of land border fee options and 
an active review of all other existing fee rates to ensure that they 
are set at a level that recovers the full cost of performing ``fee-
related'' inspection services.
    CBP has a dual mission of safeguarding our Nation's borders and 
ports as well as regulating and facilitating international trade. Since 
CBP was established in March 2003, however, there has been no increase 
in CBP trade enforcement and compliance personnel. NTEU is concerned 
that the fiscal year 2014 budget, rather than increasing full-time 
equivalents (FTEs) for CBP trade operations personnel, proposes to cut 
21 trade operations positions including 14 rulings and regulations 
staffers who are responsible for promulgating regulations and rulings, 
and providing policy and technical support to CBP, DHS, Treasury, 
Congress, and the importing community concerning the application of 
Customs laws and regulations.
    NTEU urges the Committee not to cut CBP trade operations staff, but 
to increase funding to hire additional trade enforcement and compliance 
personnel, including import specialists, at the POEs to enhance trade 
revenue collection.
    NTEU commends the Department for increasing the journeyman pay for 
CBP officers and agriculture specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale.
    NTEU strongly supports extending this same career ladder increase 
to additional CBP positions, including CBP trade operations specialists 
and CBP seized property specialists. The journeyman pay level for the 
CBP technicians who perform important commercial trade and 
administration duties should also be increased from GS-7 to GS-9.
    CBP continues to be a top-heavy management organization. In terms 
of real numbers, since CBP was created, the number of new managers has 
increased at a much higher rate than the number of new frontline CBP 
hires. According to CBP's own numbers, a snapshot of CBP workforce 
demographics in September 2012 shows that the supervisor to frontline 
employee ratio was 1-to-6 for the CBP workforce, 1-to-6.2 for CBP 
officers and 1-to-6.9 for CBP agriculture specialists.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of national security preparedness and frontline positions. 
Also, these highly paid management positions are straining the CBP 
budget. With the increase of potentially 3,477 new CBP officer new 
hires, NTEU urges that CBP return to a more balanced supervisor to 
frontline employee ratio.
    NTEU strongly urges Congress to end the sequester. Under 
sequestration, CBP's salaries and expenses (S&E) discretionary and 
mandatory accounts must be reduced by $512 million including a $75 
million cut in CBP user fee accounts. On March 26, the President signed 
a continuing resolution (CR) to fund the Government through the end of 
the fiscal year. The CR does not cancel the sequester. Congress did 
provide some additional funding for the CBP S&E account in the CR, but 
also required CBP to maintain the current CBP officer staffing level. 
Maintaining current staffing floors means CBP cannot use all of the 
increased funding in the CR to reduce furloughs for current employees 
since it must continue to fill vacant positions.
    Prior to enactment of the CR, the CBP sequester plan required all 
CBP employees to be furloughed up to 14 days during the remainder of 
fiscal year 2013 or 1 day per pay period beginning early to mid-April 
through September 30. With the additional funding included in the CR, 
however, there may be a reduction in the number of furlough days that 
all CBP employees must take before the end of the fiscal year. In light 
of the new funding bill, CBP is re-evaluating previously planned 
furloughs, and has postponed implementation of furloughs pending that 
re-examination.
                            RECOMMENDATIONS
                            
    Funding for additional CBP staff must be increased to ensure 
security and mitigate prolonged wait times for both trade and travel at 
our Nation's ports of entry. Therefore, NTEU urges the Committee to end 
the sequester and include in its fiscal year 2014 DHS appropriations 
bill:
  --funding to increase CBP officer staffing at the ports of entry to 
        the level in the administration's fiscal year 2014 budget 
        submission;
  --funding to increase agriculture inspection and trade enforcement 
        staffing to adequately address increased agriculture and 
        commercial trade volumes; and
  --funding to extend enhanced pay and retirement recognition to 
        additional CBP personnel, including import and other commercial 
        operations specialists, CBP-seized property specialists and CBP 
        technicians.
    The more than 24,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea and land ports. These men and women are deserving 
of more resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
Committee on their behalf.
                                         Colleen M. Kelley,
                                                National President.
</pre></body></html>
